Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Harwood Heights Police DepartmentHarwood Heights, Illinois

Report No. GR-50-04-007 


May 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Harwood Heights, Illinois Police Department (HHPD). The purpose of the grants is to enhance community policing. The HHPD was awarded a total of $702,802 to hire 8 new police officers and redeploy the equivalent of 4.1 existing full-time police officers from administrative duties to community policing.
We found the HHPD to be generally in compliance with COPS' grant requirements. We reviewed the HHPD's compliance with seven essential grant conditions and we found weaknesses in the HHPD's financial grant records related to reimbursement requests and local matching funds. Specifically, the HHPD's grant records did not accurately reflect the grant activities because the records were not complete, included unallowable cost categories and positions in addition to those funded by COPS, and did not identify the date, source, and amount of local matching funds. In spite of the errors and weaknesses in the financial grant records, our testing revealed that the grantee incurred sufficient entry-level officer allowable expenses during the grant period (federal and local share) to support the reimbursed award amount of $600,000.
These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope and methodology appear in Appendix I.